No. 19-1155
IN THE

Supreme Court of the United States
JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL,
Petitioner,
v.
MING DAI,
Respondent.
On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF COMPLIANCE
I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.1(h), I certify this 4th day of January, 2021, that the Brief for the Respondent
contains 12,949 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

David J. Zimmer
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210
dzimmer@goodwinlaw.com
(617) 570-1000
Counsel for Respondent
January 4, 2021

